March 31, 2009

PATRICK R. DONAHOE
DEPUTY POSTMASTER GENERAL AND CHIEF OPERATING OFFICER

SUBJECT:          Management Advisory Report – Benchmarking Postal
                  Service Parcel Productivity (Report Number EN-MA-09-002)

This report presents the results of our review of U.S. Postal Service mail processing
productivity (Project Number 09XS001EN000). The report responds to a request from
the Board of Governors Audit and Finance Committee that we benchmark Postal
Service productivity against that of similar U.S. commercial entities. Our objective was
to assess the process the Postal Service uses to drive parcel processing productivity
improvements by benchmarking with the U.S. private sector. This review addresses
strategic, financial, and operational risks. See Appendix A for additional information
about this audit.

Conclusion

We concluded the Postal Service has improved productivity through the use of various
strategies to promote continuous improvement, including automated processing
operations, competitive intelligence to improve processes, the closure of facilities and
consolidation of operations to reduce costs, and the increased use of industrial
engineers in plants to assist management. However, the Postal Service has additional
opportunities to increase productivity by adopting best practices used in the commercial
parcel processing industry. The business practices of Postal Service competitors lend
themselves to increased agility in response to prevailing economic conditions and
customers’ needs, while the Postal Service is challenged to comply with its Universal
Service Obligation1 and various restrictions that limit its ability to manage fixed costs
and streamline its network.

We benchmarked productivity improvement methods in the private sector at two
processing and distribution companies (Federal Express Corporation [FedEx] and
United Parcel Service, Inc. [UPS]), a parcel consolidator (FedEx SmartPost), and a
major parcel mailer (L.L. Bean, Inc.). We determined that these entities measure
productivity in ways similar to the Postal Service, generally as a ratio of volume to
1
  39 U.S.C. 101(a) states, “The Postal Service shall have as its basic function the obligation to provide postal services
to bind the Nation together through the personal, educational, literary, and business correspondence of the people. It
shall provide prompt, reliable, and efficient services to patrons in all areas and shall render postal services to all
communities.”
Benchmarking Postal Service Parcel Productivity                                            EN-MA-09-002



workhours. We were unable to compare actual Postal Service productivity with these
commercial entities because productivity data was not available from the benchmarked
companies.

Among the benchmarked entities, we identified best practices that could benefit parcel
processing productivity at the Postal Service.2 Specifically, workforce flexibilities,
reliance on performance standards, and continuous operations flow are strategies that
may offer the Postal Service the opportunity to improve productivity. See Appendix B
for our detailed analysis of this topic.

Strategies to Improve Productivity

Common to Postal Service and benchmarked entities are the use of various strategies
to promote continuous improvement, including automated processing operations,
competitive intelligence to improve processes, the closure and consolidation of
operations to reduce costs, and the increased use of industrial engineers in plants to
assist management. See Appendix C for our detailed analysis of this topic.

Workforce Flexibility

The Postal Service has limited workforce flexibility compared to the benchmarked
companies. The Postal Service processing workforce is predominantly comprised of
full-time employees, scheduled in three 8-hour shifts daily,3 and bound by union
agreements with limited ability to cross crafts.4 Benchmarked companies predominantly
use part-time employees, scheduled in 4-hour shifts with staggered start times, which
may vary daily or weekly depending on work volumes. In addition, managers at the
benchmarked companies monitor workload daily, evaluate productivity in real time, and
adjust employee work schedules in response to workload changes. Further, cross-
trained employees at benchmarked companies are moved in response to workload
needs, including crossing crafts.

Implementing more flexible workforce strategies such as these would have a positive
impact on Postal Service processing productivity, in that employee hours could be
better managed based on workload. Further, this may result in workhour savings. See
Appendix C for our detailed analysis of this topic.

When the current collective bargaining agreements expire, we suggest the Postal
Service review the benefits of negotiating with the unions to modify work rules to
promote a more flexible, part-time workforce,5 including:
2
  While our review focused on parcels, mail processing for other mail shapes could also benefit from these best
practices.
3
  The Postal Service is currently exploring the compression of work tours to consolidate volumes being processed
within a given number of workhours and increase productivity.
4
  The Postal Service Corporate Complement Management Guidelines defines crossing crafts as, “The assignment of
an employee from one craft to work in a different craft because of insufficient work in the employee’s assignment or a
light workload period in one craft and a heavy workload period in another craft/occupational group; consistent with the
provisions of Article 7.”
5
  During our audit, the Postal Service and one union agreed to provide increased flexibility in the motor vehicle craft.

                                                           2
Benchmarking Postal Service Parcel Productivity                                       EN-MA-09-002




    •   Maintaining new-hire part-time status unconditionally.

    •   Offering full-time employees part-time positions.

    •   Moving employees among tasks by crossing crafts.

    •   Developing more multi-activity positions.

Work Standards and Goals

The Postal Service has opportunities to improve work standards and goal-setting. Our
benchmarked companies use consistent productivity standards for each work activity,
based on machine specifications and time-motion studies performed by industrial
engineers. Managers and employees are held accountable for meeting productivity
goals, and the budget for operations and workhours is linked to productivity standards.
Further, managers and industrial engineers revisit productivity continuously, reset
standards as appropriate, and adjust employee work duties to meet goals. The
benchmarked companies also increase their productivity targets each year,
continuously raising the goals for even top-performing plants.

In contrast, the Postal Service must coordinate with its unions when setting work
standards for employees.6 The Postal Service uses actual operational performance by
the top-performing plants as targets for lower-performing facilities. Operational targets
are reviewed and adjusted annually. Management stated continuous improvement for
high performing plants is addressed through the budget process.

The use of standardized performance goals for activities throughout the Postal Service
network would clarify expectations for employees and provide managers with a basis for
measuring progress toward productivity goals. See Appendix C for our detailed
analysis of this topic.

We suggest the Postal Service review the benefits of establishing work standards and
productivity measures for work activities with a defined link between work standards and
the budget.

Continuous Flow of Parcels

The Postal Service uses batch processing more than the benchmarked companies,
which focus on continuous flow of parcels. At three of the four commercial operations
we visited, parcels were not seen in staging areas or in containers waiting to be rolled to
a loading dock. Rather, the parcels moved continuously on conveyor belts from plant

6
  Article 34, Work and/or Time Standards, of the American Postal Workers Union (APWU) Collective Bargaining
Agreement describes the process the Postal Service and the union must follow to change or add work standards.
The APWU Collective Bargaining Agreement includes stipulations for employee work standards, including
requirements for notifying the unions, developing the standards, and testing and implementing the standards.

                                                        3
Benchmarking Postal Service Parcel Productivity                      EN-MA-09-002



entry, through processing and sorting, and on to final exit for distribution. These parcels
moved more quickly through operations at the benchmarked entities when compared
with the flow at the Postal Service.

By adopting the continuous flow practices in use by the benchmarked entities, the
Postal Service could decrease use and cost of mail transport equipment, decrease
handling time, and decrease workhours. See Appendix C for our detailed analysis of
this topic.

We suggest the Postal Service look for opportunities to promote continuous flow in
processing operations.

Management’s Comments

Management agreed with our suggestions to review the benefits of negotiating with the
unions to modify work rules, to establish work standards and productivity measures for
work activities, and to look for opportunities to promote continuous flow in processing
operations. See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the suggestions and corrective actions should resolve the
issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael Magalski, Director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: William P. Galligan, Jr.
    Anthony M. Pajunas
    David E. Williams, Jr.
    Robert D. Williamson
    Katherine S. Banks



                                                  4
Benchmarking Postal Service Parcel Productivity                                             EN-MA-09-002



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service experiences wide variations in productivity among plants. In a 2005
report,7 the Government Accountability Office (GAO) stated the Postal Service was
challenged by workforce rules and resistance to plant closings, and the lack of criteria
and processes for eliminating excess capacity could prolong processing inefficiencies.

In its 2008 Network Plan,8 the Postal Service addressed productivity as follows:

         Refinement of Postal Service operations is an ongoing process, and
         results in continuous improvements in processing, equipment
         standardization, productivity, service performance, and customer
         satisfaction. The Postal Service mail processing strategy focuses on
         maximizing the use of its automated equipment, improving the quality of
         mail processing, and eliminating excess capacity, while minimizing
         adverse impact on service.

In January 2009, GAO testified before the Congress9 that the Postal Service’s current
financial position and outlook have deteriorated, largely based on economic conditions.
GAO noted that Postal Service institutional costs are high and difficult to change in the
short term. Compensation and benefits for the Postal Service workforce (about 663,000
career and nearly 102,000 non-career employees at the end of fiscal year [FY] 2008)
generated close to 80 percent of these costs.

The Postal Service has collective bargaining agreements with its four largest unions that
expire in 2010 and 2011. These agreements include layoff protections, health benefit
contributions,10 semiannual cost-of-living allowances, and work rules that constrain the
Postal Service’s flexibility.

The Postal Service is predominantly a letter processing entity and is an acknowledged
leader in the automation of letter processing. During 2008, approximately 81 percent of
the 203 billion pieces processed by the Postal Service was letter mail. (See Figure 1.)
In 2008 the largest volume decline occurred in single-piece First-Class™ letters, part of
a long-term trend that reflects the impact of communications over the Internet, electronic
bill payment, and other electronic alternatives.




7
  U.S. Postal Service: The Service’s Strategy for Realigning Its Mail Processing Infrastructure Lacks Clarity, Criteria,
and Accountability (Report Number GAO-05-261, dated April 4, 2005).
8
  Postal Accountability and Enhancement Act § 302, Network Plan, June 2008.
9
  U.S. Postal Service, Deteriorating Postal Finances Require Aggressive Actions to Reduce Costs (Report Number
GAO-09-332T, dated January 28, 2009).
10
   OIG, Postal Service’s Employee Benefit Programs (Report Number HM-AR-07-03, dated September 24, 2007).

                                                            5
Benchmarrking Postal Service
                     S       Parcel Productivity                             EN-MA--09-002



                                      Figure 1: Mail Volu
                                                        umes

                                              FY
                                               Y 2008
                                         Letters     Flats      Pacckages

                                                     1%


                                              18%




                                                              81%




       So
        ource: Headquarters Finan
                                nce, Demand Forecasting R
                                                        Report, Januaary 8, 2009 

Although
       h parcels re
                  epresent lesss than 2 percent
                                        p       of Postal
                                                   P      Service volumess, they makke
up 13 pe
       ercent of market sharee in the U.S
                                        S. (See Figure 2.)

                            Figure
                                 e 2: U.S. Pa
                                            ackage Delivery Mark
                                                               ket
                                       USPS        U
                                                   UPS       FedEx   Other

                                                     1%

                                                              13%
                                   3
                                   30%




                                                                      56%




           Source: SJ Consulting Gro
                                   oup Inc., Febru
                                                 uary 3, 2009


As letterr volumes decline,
                   d        parrcel shipme
                                         ents offer an
                                                     n opportunity for growtth, and the
Postal Service
       S        fore
                   ecasts incre
                              easing parcel volumes in the futurre. (See Figure 3.)




                                                         6
Benchmarking Postal Service Parcel Productivity                     EN-MA-09-002




                                              Redacted




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the process the Postal Service uses to drive productivity
improvements by benchmarking with the U.S. private sector. This audit focused on
parcel processing productivity. To accomplish our objective, we partnered with Postal
Service managers, observed operations at selected U.S. private sector parcel
processing and distribution facilities (see Appendix B), discussed operational and
productivity methods with Postal Service and private sector managers, and analyzed
publicly available information.

We conducted this review from October 2008 through March 2009 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our observations and conclusions with management officials on
March 18, 2009, and included their comments where appropriate.

SCOPE LIMITATION

Due to the proprietary nature of some information, the benchmarked commercial entities
did not share their specific productivity data or provide exact numbers of their parcel
processing employees.

RISK ASSESSMENT

See Appendix D for a summary of risks associated with this audit.



                                                  7
       Benchmarking Postal Service Parcel Productivity                                            EN-MA-09-002



       PRIOR AUDIT COVERAGE

                                                 Final
                             Report
   Report Title                                 Report                                   Report Results
                             Number
                                                 Date
                                                               We concluded that the Postal Service’s Federal Employees Group Life
                                                               Insurance (FEGLI) and Federal Employees Health Benefits (FEHB)
                                                                                         11                   12
                                                               programs for bargaining and nonbargaining employees were comparable
                                                               to the six federal and five quasi-federal agencies against which we
                                                                                                                                 13
                                                               benchmarked. However, the Postal Service’s contribution rates for both
    Postal Service’s
                                             September 24,     programs were significantly higher than most agencies. We also
   Employee Benefit         HM-AR-07-03
                                                 2007          determined that the Postal Service can change existing FEGLI and FEHB
      Programs
                                                               contribution rates through negotiations with its unions (for bargaining
                                                               employees) and consultations with management associations (for
                                                               nonbargaining employees). Specifically, we calculated the Postal Service’s
                                                               potential savings resulting from further reductions in benefit program
                                                               contributions to be $1.073 billion over 10 years.
U.S. Postal Service: The                                       The GAO reported on major changes in the mailing industry that have
 Service’s Strategy for                                        reinforced the need for the Postal Service to reduce costs and increase
   Realigning Its Mail                                         efficiency. To address these changes and become more efficient, the
                             GAO-05-261       April 8, 2005
Processing Infrastructure                                      Postal Service is implementing initiatives aimed at realigning its mail
 Lacks Clarity, Criteria,                                      processing network. Challenges such as maintaining delivery standards
   and Accountability                                          and addressing stakeholder and community resistance remain.
  U.S. Postal Service:                                         GAO’s testimony described: (1) the changes that have affected the Postal
    Progress Made in                                           Service’s processing network, (2) GAO’s concerns related to the Postal
   Implementing Mail                                           Service’s strategy for realigning its mail processing network and
Processing Realignment                                         implementing its Area Mail Processing consolidations, and (3) GAO’s
    Efforts, but Better     GAO-07-1083T      July 26, 2007    concerns related to the Postal Service’s progress in improving delivery
     Integration and                                           performance information.
      Performance
   Measurement Still
         Needed
                                                               GAO testified that when Congress passed the Postal Accountability and
  U.S. Postal Service:                                         Enhancement Act in December 2006, the Postal Service had just completed
  Deteriorating Postal                                         FY 2006 with its largest mail volume ever—213 billion pieces of mail and a
                                               January 28,
   Finances Require         GAO-09-332T                        net income of $900 million. Two years later, the Postal Service’s mail
                                                  2009
 Aggressive Actions to                                         volume dropped almost 5 percent—the largest single-year decline. The
     Reduce Costs                                              Postmaster General testified in March 2008 before Congress that the Postal
                                                               Service was facing a potential net loss of over $1 billion for FY 2008.




       11
          Bargaining employees are represented by labor unions that negotiate with the Postal Service for wages, hours, and
       other terms and conditions of employment. These employees include city and rural letter carriers, clerks, mail
       handlers, special delivery messengers, maintenance employees, and motor vehicle operators.
       12
          Nonbargaining employees are career and noncareer employees in supervisory professional, technical, clerical,
       administrative, and managerial positions in the Executive and Administrative Schedule who are not subject to
       collective bargaining agreements.
       13
          The contribution rate is the percentage of the life insurance or health benefit premiums the agency or employer
       pays on behalf of the recipient.

                                                                8
Benchmarking Postal Service Parcel Productivity                              EN-MA-09-002



                APPENDIX B: BENCHMARKED COMMERCIAL ENTITIES

                          Site Visit
      Company                                Operation Type            Company Information
                          Location
FedEx                  Memphis, TN         Parcel processing   FedEx Ground specializes in small-
                                           and distribution    package shipping delivery for
                                                               convenient residential service. FedEx
                                                               Ground service has a workforce of
                                                               more than 71,000 employees and
                                                               independent contractors. The average
                                                               daily volume is more than 3.3 million
                                                               packages throughout the U.S.,
                                                               Canada, and Puerto Rico.
UPS                    Louisville, KY      Parcel processing   UPS Package Operations delivered
                                           and distribution    more than 4 billion packages and
                                                               documents in 2007. The average daily
                                                               delivery volume is 15.8 million
                                                               packages and documents. UPS
                                                               delivers in North America and Europe
                                                               and to more than 200 countries and
                                                               territories. The corporation has a total
                                                               of 425,300 employees worldwide.
FedEx SmartPost        Dallas, TX          Parcel              FedEx SmartPost picks up, sorts, line
                                           consolidation       hauls, tracks, and delivers an
                                                               estimated 300 million packages.
L.L. Bean              Freeport, ME        Parcel mailer       L.L. Bean is a privately held, family-
                                                               owned company specializing in direct
                                                               sales of sporting goods, home
                                                               furnishings and clothing.
                                                               Headquartered in Freeport, ME, the
                                                               company has annual sales of more
                                                               than $1.6 billion.




                                                   9
Benchmarking Postal Service Parcel Productivity                        EN-MA-09-002



                             APPENDIX C: DETAILED ANALYSIS

Strategies to Improve Productivity

Common to the Postal Service and our benchmarked entities are the use of various
strategies to promote continuous improvement, including automated processing
operations, competitive intelligence to improve processes, the closure of facilities and
consolidation of operations to reduce costs, and the placement of industrial engineers in
plants to assist management.

    •   The Postal Service and the benchmarked entities process parcels both manually
        and using automation. At one benchmarked facility, automation generally
        precludes employee handling of parcels except when being unloaded upon entry
        to the facility; once on a conveyor belt, processing is automated and parcels are
        sorted into bags before being loaded (manually) into air containers. In Vision
        2013: Strategic Plan 2009 – 2013, the Postal Service credits automation as the
        single-most important factor in its own service and productivity gains.

    •   Competitive intelligence, or the use of information learned from similar or
        dissimilar operations, is common to the benchmarked entities and the Postal
        Service. At one benchmarked processing plant, managers pointed out that they
        had adapted a baggage handling device observed at the Frankfurt Airport to
        move large irregular parcels through the plant. The sled and its straps had been
        further modified at the suggestion of an employee by creating a depression in the
        flat surface suitable for holding large containers, such as 5-gallon buckets of
        paint. Postal Service officials had already visited three of the four facilities where
        we observed operations, and one Postal Service manager told us that as the
        result of one of these site visits, more industrial engineers are now being used at
        Postal Service facilities.

    •   We learned that the benchmarked entities consolidate and close facilities as
        business needs change, which diverts volumes, cuts costs, and increases
        productivity at the remaining facilities. The Postal Service has a parallel process
        in its Area Mail Processing consolidation program, but encounters stakeholder
        opposition to most consolidation proposals. In this issue as well as others, the
        Postal Service is challenged by external factors that prolong processing
        inefficiencies.

    •   Industrial engineers in benchmarked entities focus on strategies designed to
        improve productivity, including elimination of waste and non-value-added
        activities, through continuous review and development of standards. The Postal
        Service increased the number of industrial engineers in processing facilities as a
        result of its own benchmarking with the private sector. Using the skills of
        industrial engineers may improve processing productivity in the future.




                                                  10
Benchmarking Postal Service Parcel Productivity                      EN-MA-09-002



Workforce Flexibility

The Postal Service has limited workforce flexibility compared to the private sector. All
the benchmarked companies predominantly use part-time employees, scheduled in 4-
hour shifts with staggered start times, which can vary daily or weekly depending on
work volumes. One company is similar to the Postal Service in that its processing
employees are union members; however, their collective bargaining agreements
incorporate flexible scheduling and crossing crafts.

Managers at the benchmarked companies monitor workload daily, evaluate productivity
in real time, and adjust the workforce in response to workload fluctuations. According to
managers, part-time shifts maximize both flexibility and productivity. One manager
stated that the urgent nature of parcel processing does not allow employees to perform
at their peak for 8 hours at a time — 4 hours is the ideal amount of time to stay fresh on
the job. Notifying employees of their work schedules takes place by various methods;
for example, in one facility employees call a number with a recorded message to learn
their start times and can be told to stop work earlier than scheduled if necessary. At
one facility we were told that even the few full-time employees would not work full-time
hours in the months to come, to reduce costs during the ongoing economic downturn.

To make part-time employment more attractive, three of the four benchmarked
companies provide health benefits and tuition reimbursement incentives to their part-
time employees.

Cross-trained employees are moved among jobs in response to need. At one entity, we
saw employees transfer among activity centers to finish work at the end of a shift, and
at another, we observed employees moving from a sorting activity to loading bags into
air containers. A manager at one facility told us that moving employees across crafts
increases flexibility in the process of filling and shipping orders, and said that employees
who finish their processing tasks early sweep and collect debris from the work areas to
complete their 4-hour shift.

In contrast, the Postal Service processing workforce is predominantly comprised of full-
time employees, scheduled in three 8-hour shifts and bound by union agreements. On
this issue, the Postal Service is challenged by workforce rules that prolong processing
inefficiencies. Article 7, Employee Classifications, of the APWU Collective Bargaining
Agreement (2006 – 2010) provides guidelines for part-time employees and stipulates
that:

        With respect to the clerk craft, no later than December 1, 2007, all
        part-time flexible employees in postal installations which have 200 or more
        man years of employment will be converted to full-time regular status.
        Henceforth, installations which have 200 or more man years of
        employment shall be staffed with all regular employees. (Article 7.3,
        Employee Complement, page 23)



                                                  11
Benchmarking Postal Service Parcel Productivity                          EN-MA-09-002



In effect, this requirement provides more employees with a 40-hour work week, allowing
less workforce flexibility during a period of declining mail volumes and potentially
affecting productivity. Maintaining part-time status would reduce costs and potentially
increase Postal Service productivity.

Criteria are also in place for crossing crafts. This flexibility-increasing tactic is subject to
Article 7.2 of the APWU agreement and requires managers to consider wage level,
knowledge, and experience before asking employees to perform duties outside their
normal purview. In addition, sufficient notice of crossing crafts must be given to union
representatives.

Increasing Postal Service workforce flexibility by managing part-time scheduling and
filling employee workhours with necessary tasks, even across crafts, could increase
productivity. In addition, workhour savings could be achieved immediately, rather than
delayed and achieved only over time through attrition.

Work Standards and Goals

The Postal Service has opportunities to improve work standards and goal setting. At
the benchmarked companies, industrial engineers work with managers to set consistent
productivity standards for each work activity, based on machine specifications and time-
motion studies. One manager stated that “everything on site” was measured.
Managers and employees are held accountable for meeting productivity goals, and the
budget is linked to productivity standards. Further, managers and industrial engineers
revisit productivity continuously, reset standards as appropriate, and adjust employees’
work duties to meet goals. Below are two examples of work standards and goal-setting.

    •   One manager told us he estimates the productivity required for a shift before it
        begins, based on incoming volumes. He checks the employees’ throughput after
        10 minutes and talks to any employee whose work will not meet the goal.

    •   At one facility, employees are informed of their progress in completing a goal
        through a processing cycle by electronic signs throughout the plant. The signs
        identify the wave number, percentage of completion, and next tasks required to
        finish the processing.

The Postal Service has various new initiatives to promote consistency in equipment
targets and standardization in operations. Examples include:

    •   Standardizing the use of various pieces of automation equipment and a
        certification process to promote uniformity.

    •   Defining consistent equipment productivity goals for the same equipment located
        in different facilities.




                                                  12
Benchmarking Postal Service Parcel Productivity                                         EN-MA-09-002



While productivity targets for equipment are in use at Postal Service facilities, work
performance standards for employees or activities are limited in processing operations.
For example, work standards exist for employees in the remote encoding centers.
However, since work standards are not fully developed and communicated in all
operations, holding employees accountable is more difficult.

Finally, the benchmarked companies increase productivity targets each year,
continuously raising goals for even top-performing plants. In contrast, the Postal
Service uses demonstrated operational performance by the top-performing plants as
targets for lower-performing facilities. Operational targets are reviewed and adjusted
annually, and management stated continuous improvement for high performing plants is
addressed through the budget process. The Postal Service encourages lower-
performing plants to aspire to the highest performance demonstrated, but they do not
know if that productivity is the highest that is reasonably achievable. Productivity
improvement, rather than meeting an objective standard, is rewarded through the Postal
Service pay for performance program for managers.

Continuous Flow of Parcels

The Postal Service uses more batch processing than the benchmarked companies,
which focus on continuous flow.14 At benchmarked facilities, parcel handling is
minimized. For example, at one processing plant, a manager told us employees touch
a parcel only twice – once when it comes off a bed-loaded truck and once when it is
containerized; otherwise, the parcel remains on a conveyor belt.

We saw very little, if any, parcel transport equipment or manual movement of parcels in
any of the non-postal facilities we visited. Parcels were not observed in staging areas
or in containers waiting to be rolled to a dock. Instead, they were either coming off a
truck onto a conveyor belt, moving through the plant on sorting equipment, or being
containerized prior to being reloaded onto a truck. Parcels moved through one
benchmarked facility in as little as 8, but no more than 45, minutes.

Parcel processing operations in Postal Service facilities are essentially completed in
batches, in accordance with service standards and 24-hour clock criteria.15 Parcels
may be handled many times at a Postal Service facility. They are moved manually in
various types of mail transport equipment between docks and processing machinery,
staged and held in waiting areas for additional processing, and moved manually back to
docks before being loaded onto trucks in transport equipment. This is sometimes the
result of old, legacy facilities not well suited to the modern processing of parcels.
Parcels might remain in a Postal Service facility for hours or days, depending on the
mail class and applicable service standards. (See Figure 4.)


14
   Continuous flow is a production strategy that minimizes waste of resources (time, space, and work) and results in
on-time, damage-free parcel volumes.
15
   The 24-hour clock indicators show how key operations affect each other and may influence service. Each indicator
is a key link in providing service to downstream facilities and customers.

                                                        13
Benchmarking Postal Service Parcel Productivity                       EN-MA-09-002



                                  Figure 4: Service Standards

                                     Postal Service Service
                                    Standards by Mail Class
                                       (Continental U.S.)
                                  Express Mail®         1 – 2 Days
                                  Priority Mail®        1 – 3 Days
                                First-Class Mail®       1 – 3 Days
                                    Periodicals         1 – 9 Days

                                Package Services        2 – 8 Days
                                 Standard Mail®         3 – 10 Days




                                                   14
Benchmarking Postal Service Parcel Productivity                          EN-MA-09-002



                              APPENDIX D: RISK ASSESSMENT

      Risk
                        Risk Factor               Probability   Impact           Risk
    Category
                          Network                                         Competitive nature
  Strategic            Optimization:                 High        High     of parcel industry
                    Enterprise resilience                                 requires flexibility.
                         Long-term                                        Economic down-
  Strategic             forecasting:                 High        High     turns affect parcel
                         Economy                                          industry.
                                                                          Decreasing
                                                                          volumes require
                    Strategic workforce                                   flexibility in
  Strategic                                          High        High
                         planning                                         workforce, as seen
                                                                          in parcel and other
                                                                          industries.
                                                                          Labor costs are
                                                                          mainly fixed and
  Financial              Labor costs                 High        High     represent nearly
                                                                          80 percent of all
                                                                          costs.
                                                                          Workforce
                       Planning and                                       inflexibility causes
  Operational         monitoring work:               High        High     delays in adjusting
                     Volume/workhours                                     workhours to
                                                                          workload.




                                                    15
Benchmarking Postal Service Parcel Productivity        EN-MA-09-002



                       APPENDIX E: MANAGEMENT’S COMMENTS




                                                  16
Benchmarking Postal Service Parcel Productivity        EN-MA-09-002




                                                  17
Benchmarking Postal Service Parcel Productivity        EN-MA-09-002




                                                  18
